D
I                                                            SINGLE AUDIT
S
C                                                            QUALITY CONTROL REVIEW
U
S
S
I
O
N              Office of Inspector General—Office of Audit
D
R
A
F
T




                                                             RECOVERY ACT: QUALITY CONTROL REVIEW
                                                             SINGLE AUDIT OF UPPER RIO GRANDE
                                                             WORKFORCE DEVELOPMENT BOARD, INC. FOR
                                                             THE YEAR ENDED JUNE 30, 2009




                                                                                Date Issued:   September 16, 2010
02-A12-345-67-890                                                            Report Number:      18-10-007-03-390
                                           U.S. Department of Labor – Office of Inspector General



U.S. Department of Labor                 Office of Inspector General
                                         Washington, D.C. 20210
September 16, 2010

                        Assistant Inspector General’s Report

Mr. Lorenzo Reyes
Chief Executive Officer
Workforce Solutions Upper Rio Grande
221 N. Kansas, Suite 1000
El Paso, TX 79901

Dear Mr. Reyes:

The purpose of this report is to formally advise you of the results of a Quality Control
Review (QCR) the U.S. Department of Labor (DOL), Office of Inspector General (OIG)
conducted of the following audit completed by White + Samaniego + Campbell, L.L.P.
(the Firm), under the Federal Single Audit Act and Office of Management and Budget
(OMB) Circular A-133 (A-133):

       Single Audit of the Upper Rio Grande Workforce Development Board, Inc.
      (URGWDB) for the year ended June 30, 2009.

We performed a QCR of the above referenced audit. Our review included the following
DOL major programs:

DOL Major Programs Reviewed
                                             Catalog of Federal
                                           Domestic Assistance                 DOL Funds
Major Program                                  (CFDA) Number                    Expended
Employment Service (ES)                                  17.207                  $133,654
American Recovery and Reinvestment
Act (ARRA) – ES                                                    17.207             $670
Trade Adjustment Assistance (TAA)                                  17.245       $2,656,456
                                                                   17.258
Workforce Investment Act (WIA)
                                                                   17.259
Cluster
                                                                   17.260      $12,894,132
                                                                   17.258
ARRA – WIA Cluster                                                 17.259
                                                                   17.260         $931,849
Total DOL Funds Expended                                                       $16,616,761

Since our review included ARRA funds, we are required by ARRA to post this report on
our website www.oig.dol.gov and link to the Recovery Accountability and Transparency
Board’s website www.recovery.gov.

                                            1                          Quality Control Review
                                           Upper Rio Grande Workforce Development Board, Inc.
                                                            Report Number: 18-10-007-03-390
                                           U.S. Department of Labor – Office of Inspector General


The objectives of the QCR were to determine whether (1) the audit was conducted in
accordance with applicable standards and met the single audit requirements, (2) any
follow-up work is needed, and (3) there are any issues that may require management’s
attention.

The audit work performed by the Firm did not meet certain requirements of the Single
Audit Act and A-133. Additional work is required to bring this audit into compliance with
certain requirements of the Single Audit Act. Specifically, the Firm needs to update audit
documentation to add the following: reasons compliance requirements did not apply to
major programs, sampling methodologies used for internal controls and compliance
requirements tested, dual-purpose testing used and separate conclusions on the
internal control and compliance testing results, and auditors’ judgments made on the
significance of exceptions. Furthermore, the Firm needs to submit a revised
data-collection form to the Federal Audit Clearinghouse to accurately identify the WIA
cluster as major programs, properly spell the auditee’s name, and properly record the
ARRA prefix.

We also noted issues requiring management’s attention to improve the quality of future
audits. Specifically, the Firm needs to increase supervision; implement its established
quality control policies; document auditor judgments on noted exceptions; provide
additional training, if necessary, for Firm personnel responsible for reporting quality
control; and inform the auditee of the need to accurately complete the Schedule of
Expenditure of Federal Awards (SEFA) and data-collection form.

The Firm agreed to address the noted deficiencies to improve the quality of the audit.
Details on the results of our review are provided in the Enclosure.

Sincerely,




Elliot P. Lewis
Assistant Inspector General
 for Audit

Enclosure

cc: Ms. Roxie Samaniego, Partner, White + Samaniego + Campbell L.L.P.

   Mr. Martin Bombach, Acting Chief Financial Officer, Workforce Solutions
   Upper Rio Grande

   Ms. Judith A. Fisher, Director, Division of Policy, Review, and Resolution,
   Employment and Training Administration

                                            2                          Quality Control Review
                                           Upper Rio Grande Workforce Development Board, Inc.
                                                            Report Number: 18-10-007-03-390
                                          U.S. Department of Labor – Office of Inspector General



                                                                                   Enclosure

                      Recovery Act: Quality Control Review

    Single Audit of the Upper Rio Grande Workforce Development Board, Inc. 

                         for the Year Ended June 30, 2009 

                                 (18-10-007-03-001) 


Introduction

The Single Audit Act of 1984, as amended by the Single Audit Act Amendments of
1996, created a single organization-wide financial and compliance audit for state and
local governments, colleges, universities, and not-for-profit organizations that expend
Federal funds equal to or greater than $300,000 in any fiscal year ($500,000 for fiscal
years ending after December 31, 2003).

On November 5, 2009, the Firm issued a single audit report of the URGWDB financial
statements, SEFA, and reports required by Government Auditing Standards (GAS) and
A-133 for the year ended June 30, 2009.

We performed a QCR of the above referenced audit. Our review included the following
DOL major programs:

DOL Major Programs Reviewed
                                                            CFDA         DOL Funds
Major Program                                             Number          Expended
ES                                                         17.207           $133,654
ARRA – ES                                                  17.207               $670
TAA                                                        17.245         $2,656,456
                                                           17.258
WIA Cluster                                                17.259
                                                           17.260        $12,894,132
                                                           17.258
ARRA – WIA Cluster                                         17.259
                                                           17.260           $931,849
Total DOL Funds Expended                                                 $16,616,761

Since our review included ARRA funds, we are required by ARRA to post this report on
our website www.oig.dol.gov and link to the Board’s website www.recovery.gov.

Objectives

The objectives of the QCR were to determine whether (1) the audit was conducted in
accordance with applicable standards and met the single audit requirements, (2) any
follow-up work is needed, and (3) there are any issues that may require management’s
attention.

                                            3                          Quality Control Review
                                           Upper Rio Grande Workforce Development Board, Inc.
                                                            Report Number: 18-10-007-03-390
                                           U.S. Department of Labor – Office of Inspector General



Results

The audit work performed by the Firm did not meet certain requirements of the Single
Audit Act and A-133. Additional work is required to bring this audit into compliance with
certain requirements of the Single Audit Act. Specifically, the Firm needs to update audit
documentation to add the following: reasons compliance requirements did not apply to
major programs, sampling methodologies used for internal controls and compliance
requirements tested, utilization of dual purpose testing and separate conclusions made
on the internal control and compliance testing results, and auditors’ judgments made on
the significance of exceptions. Furthermore, the Firm needs to submit a revised
data-collection form to the Federal Audit Clearinghouse to accurately identify the WIA
cluster as major programs, properly spell the auditee’s name, and properly record the
ARRA prefix.

We also noted issues requiring management’s attention to improve the quality of future
audits. Specifically, the Firm needs to increase supervision; implement its established
quality control policies; document auditor judgments on noted exceptions; provide
additional training, if necessary, for Firm personnel responsible for reporting quality
control; and inform the auditee of the need to accurately complete the SEFA and data-
collection form.

Audit Documentation

Audit documentation lacked (1) reasons why compliance requirements did not apply to
major programs, (2) sampling methodologies used for internal controls and compliance
requirements tested, (3) conclusions made on dual-purpose testing utilization, and (4)
auditor judgments made on the significance of exceptions.

1. The Firm did not document the reasons why compliance requirements did not
    apply to major programs.

Audit Documentation did not include the conclusions made regarding the inapplicability
of nine compliance requirements, as follows:

      •	 2 of 14 compliance requirements (cash management and period of availability
         of Federal funds) related to the ES major program.
      •	 3 of 14 compliance requirements (cash management, period of availability of
         Federal funds, and program income) related to the TAA major program.
      •	 4 of 14 compliance requirements (cash management, matching, period of
         availability of Federal funds, and program income) related to the WIA cluster
         major program.




                                            4                          Quality Control Review
                                           Upper Rio Grande Workforce Development Board, Inc.
                                                            Report Number: 18-10-007-03-390
                                          U.S. Department of Labor – Office of Inspector General


Auditors must determine whether each of the 14 compliance requirements applies to the
major programs audited. American Institute of Certified Public Accountants (AICPA)
Audit Guide, GAS, and A-133 Audits (Audit Guide), Paragraph 10.16, states:

      In making a determination not to test a compliance requirement identified
      as applicable to a particular program, the auditor should conclude, and
      document such conclusion, either that the requirement does not apply to
      the particular auditee or that noncompliance with the requirements could
      not have a direct and material effect on a major program.

We determined that the nine compliance requirements noted above did not apply to the
major programs audited because the auditee either had no activity to that type of
compliance requirement or the activity did not have a direct and material effect on them.
Regardless of whether the compliance requirements apply, the auditors should
document their determination regarding applicability. Without properly documenting the
applicability of compliance requirements, Federal agencies and others cannot rely on
the internal control assurances and compliance opinion in the audit report related to
Federal awards.

2. The Firm did not document sampling methodologies used for internal controls
    and compliance requirements tested.

Audit documentation did not include the sampling methodologies used to perform the
internal control and compliance tests for the major programs. AICPA Audit Guide,
Paragraph 2.16, states “auditors should document significant decisions affecting the
audit objectives, scope, and methodology, findings, conclusions, and recommendations
resulting from professional judgment.” Under AICPA Codification of Statements on
Auditing Standards — AU, Section 339.03, and GAS, Paragraph 4.19, auditors must
prepare audit documentation in connection with each audit in sufficient detail to provide
a clear understanding of the work performed (including the nature, timing, extent, and
results of audit procedures performed), the audit evidence obtained and its source, and
the conclusions reached. The audit documentation provided by the Firm did not contain
information on the sample designs, such as how the samples were selected (random
vs. judgmental), sizes of the universes, and whether results could be projected. We had
uncertainty as to the adequacy of the Firm’s sample sizes given the lack of documented
sampling methodologies. However, we were satisfied with supplemental information
provided by the Firm which represented that the samples were haphazardly selected
using universes and that results were not projected.




                                            5                          Quality Control Review
                                           Upper Rio Grande Workforce Development Board, Inc.
                                                            Report Number: 18-10-007-03-390
                                              U.S. Department of Labor – Office of Inspector General



3. The Firm did not document its conclusions on dual-purpose testing utilization.

Audit documentation did not include that dual-purpose testing was utilized and did not
separately conclude on the internal control and compliance requirements. AICPA Audit
Guide, Paragraph 10.31, states:

       In some instances, the auditor may be able to perform compliance testing
       for major programs concurrently with tests of controls (that is, dual-
       purpose testing). However, such internal control and compliance tests
       should be distinguished from each other so that there is clear
       documentation to support both controls and compliance testing and the
       separate conclusions reached on both the internal controls aspects of the
       population tested and also the related compliance.

Without sufficient documentation of the auditors’ understanding and testing of internal
controls, the audit report’s users have no basis for relying on the audit report’s
assurance that internal controls were in place and operating effectively.

4. The Firm did not document auditor judgments on the significance of
    exceptions.

Audit documentation did not include auditor judgments on the significance of exceptions
that were noted in expenditure and eligibility test work. Expenditures were not marked
paid in 9 instances within the TAA, and 21 instances within the WIA cluster major
programs. Audit documentation did not address why these exceptions were not
considered a material weakness or significant deficiency.

Also, TAA eligibility test work initially noted:

       •   7 instances of missing support services needing assessment
       •   8 instances of missing proof of eligibility
       •   1 instance of missing review of training opportunity form
       •   5 instances of missing WIA fraud & abuse form
       •   1 instance of missing signature on assessment service plan
       •   2 instances of missing release of confidential information
       •   1 instance of missing proof of job search
       •   3 instances of missing objective assessment forms
       •   3 instances of forms without signatures

GAS, Paragraph 4.19(c), provides that audit documentation for financial audits
performed in accordance with GAS should contain sufficient information to enable an
experienced auditor who has had no previous connection with the audit to ascertain
from the audit documentation the evidence that supports the auditors’ significant
judgments and conclusions.


                                                6                          Quality Control Review
                                               Upper Rio Grande Workforce Development Board, Inc.
                                                                Report Number: 18-10-007-03-390
                                           U.S. Department of Labor – Office of Inspector General


Based upon our concerns, the Firm prepared supplemental information to show that the
TAA eligibility test work exceptions were resolved. Without sufficient audit
documentation, there is no assurance that the audit work was performed in accordance
with the requirements of A-133, its related Compliance Supplement, GAS, and the
AICPA auditing standards, and independent reviewers cannot understand the auditors’
conclusions and judgments regarding the work performed.

The most recent peer review’s letter of comment noted similar instances in which
performance of procedures that were in the audit programs were not documented.
Through discussions with Firm personnel, the peer reviewers were able to substantiate
that the undocumented procedures were performed. To address the peer reviewers’
concerns, the Firm established quality control policies to ensure that when a partner
performs an engagement, a concurring partner reviews and approves the audit reports,
financial statements, and audit documentation before they are provided to clients.
Policies were also established to ensure staff sign off only on steps that were actually
performed. Furthermore, every audit document was to be reviewed by the audit
supervisor or a partner to verify that all the audit procedures were actually performed. In
addition, the Firm was to have continuous staff trainings to highlight the importance of
adhering to professional standards regarding documentation of engagement and audit
procedures.

The Firm needs to update its documentation, increase supervisory involvement, and
implement its established quality control policies because preparers of audit
documentation are unaware of the importance of documentation requirements. The lack
of auditor judgments on noted irregularities affects the supportability of the audit and
ultimately its quality.

Single Audit Reporting Requirements

We found areas of inconsistency regarding the Firm’s ensuring auditee compliance with
single audit reporting requirements. Single audit reporting requirements were not met
because the individual WIA programs were not presented in a cluster on the SEFA; and
all WIA cluster programs were not identified as major programs, the auditee’s name was
misspelled, and the prefix ARRA was misplaced on the data-collection form.

5. The Firm did not ensure that the auditee complied with reporting requirements
    to prepare the SEFA in the format required by A-133.

The WIA cluster should have been presented as a cluster but instead the programs
were reported individually.




                                             7                          Quality Control Review
                                            Upper Rio Grande Workforce Development Board, Inc.
                                                             Report Number: 18-10-007-03-390
                                            U.S. Department of Labor – Office of Inspector General


A-133, Subpart C – Auditee Responsibilities, Section 310 (b), Financial Statements,
Schedule of Expenditures of Federal Awards, states, in part:

       … At a minimum, the schedule shall: 1) List individual Federal programs
       by Federal agency. For Federal programs included in a cluster of
       programs, list individual Federal programs within a cluster of programs.

The Firm told us it was aware of the cluster reporting requirement and attributed its
acceptance of the grantee-prepared SEFA to an oversight. The Firm agreed that the
clustered CFDAs should have been presented together in the SEFA. When Federal
programs are not properly presented in clusters, it does not provide for a uniform audit
report presentation which may prevent users from effectively using the data contained in
the audit reports.

6. The Firm did not ensure that the auditee complied with reporting requirements
    to prepare the data-collection in the format required by A-133.

The data-collection form submitted to the Federal Audit Clearinghouse was incorrectly
completed because all WIA cluster programs were not identified as major programs, the
auditee’s name was misspelled, and the ARRA prefix was misplaced.

A-133, Section 320, requires that the data-collection form include the name of each
Federal program as well as identify each major program and list individual programs
within a cluster. The information on the data-collection form, in its entirety, should be
accurate and complete. Title 2, Code of Federal Regulations, Part 176.210, requires
inclusion of the ARRA prefix as the first characters in Item 9d of Part III on the
data-collection form.

While URGWDB shares in the responsibility for accurate reporting because it prepared
the SEFA and data-collection form, the Firm’s reviews of the SEFA and data-collection
form should have been detailed enough to identify the inaccuracies contained within
each. As a result of these reporting inaccuracies, Federal users and the public cannot
rely on the Federal Audit Clearinghouse database to produce accurate results for this
grantee when they are searching the Clearinghouse’s website.




                                             8                          Quality Control Review
                                            Upper Rio Grande Workforce Development Board, Inc.
                                                             Report Number: 18-10-007-03-390
                                           U.S. Department of Labor – Office of Inspector General



Recommendations

We recommend the Firm:

 1. Implement review procedures and update audit documentation to show the:

       a. 	 reasons a compliance requirement does not apply to a major program.

       b. sampling methodologies used for all compliance requirements tested.

       c. 	 utilization of dual-purpose testing and separate conclusions on the internal
            control and compliance testing results.

       d. auditor judgments for noted exceptions and provide a clear understanding of
          the significance of exceptions noted during testing.

 2. Emphasize the importance of clear and concise audit documentation through 

    increased supervisory involvement. 


 3. Strengthen review procedures over the SEFA and data-collection form and submit
    a revised data-collection form to the Federal Audit Clearinghouse to accurately
    show the WIA cluster as major programs, auditee’s name, and the ARRA prefix.

 4. Inform the auditee of the need to accurately complete the SEFA and 

    data-collection form. 


 5. Implement established quality control policies; document auditor judgments on 

    noted exceptions; and provide additional training, if necessary, for those 

    responsible for audit report quality control. 


Firm’s Response

The Firm agreed with the findings and acknowledged the need to implement and update
audit documentation to adequately address the recommendations.

In future audits, the Firm will take the steps necessary to identify all clusters in the
SEFA and add steps in its auditing procedures to ensure that clusters are considered in
the reporting process and properly identified. In addition, the Firm will strengthen review
procedures over the SEFA and inform the URGWDB of the need to accurately complete
the SEFA.

Furthermore, the Firm will inform the URGWDB of the need to accurately complete the
data-collection form and submit a revised data-collection form to the Federal Audit
Clearinghouse to address the reported findings on this matter. In future audits, the Firm


                                             9                          Quality Control Review
                                            Upper Rio Grande Workforce Development Board, Inc.
                                                             Report Number: 18-10-007-03-390
                                           U.S. Department of Labor – Office of Inspector General


will establish better review procedures of the audit product and provide additional
training if necessary, for those responsible for audit report quality.

Since the issuance of the report, the Firm has added another audit partner and as a
result, will have two audit partners involved in supervision and the review process on all
audits. See Appendix D for the Firm’s complete response to our draft report.




                                            10                         Quality Control Review
                                           Upper Rio Grande Workforce Development Board, Inc.
                                                            Report Number: 18-10-007-03-390
               U.S. Department of Labor – Office of Inspector General




Appendices 





                11                         Quality Control Review
               Upper Rio Grande Workforce Development Board, Inc.
                                Report Number: 18-10-007-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





              12                         Quality Control Review
             Upper Rio Grande Workforce Development Board, Inc.
                              Report Number: 18-10-007-03-390
                                          U.S. Department of Labor – Office of Inspector General



                                                                                 Appendix A
Background

The Single Audit Act of 1984 established consistent and uniform entity-wide audit
requirements for state and local governments receiving Federal financial assistance. The
single audit is the primary mechanism used by Federal agencies to ensure accountability
for Federal awards. Audits performed under the Single Audit Act are intended to satisfy all
Federal agencies providing assistance to the entity. The act was amended in 1996 by
Public Law 104-156, raising the threshold for single audit to $300,000 in Federal
assistance. The June 27, 2003, revision to A-133 raised this threshold to $500,000 for
fiscal years ending after December 31, 2003.

QCRs are performed to provide evidence of the reliability of single audits to the auditors
of Federal agency financial statements, such as those required by the Chief Financial
Officers Act, those responsible for the programs, and others. We performed a QCR of the
single audit of the URGWDB financial statements, SEFA, and reports required by GAS
and A-133 for the year ended June 30, 2009, performed by the Firm.

URGWDB is a public non-profit organization registered in the State of Texas.
URGWDB’s mission is to promote charitable and educational services by providing
special services to disadvantaged, untrained, displaced and under-trained workers
within the Upper Rio Grande Workforce Development Area (the Area), which includes
the counties of Brewster, Culberson, El Paso, Hudspeth, Jeff Davis, and Presidio,
Texas.

URGWDB serves as a single point of contact for local businesses to communicate their
skill needs and influence the direction of all workforce development programs in the
Area. URGWDB is responsible for developing a local plan that is responsive to the
goals, objectives, and performance standards established by the Governor of the State
of Texas; and addresses the workforce development needs of the Area. In addition,
URGWDB is responsible for targeting services to meet local needs in the Area,
including the identification of industries and employers likely to employ workers who
complete job-training programs. URGWDB seeks to ensure that the workforce
development system, including the educational system, has the flexibility to meet the
needs of local businesses. URGWDB is also responsible for the monitoring and
evaluation of the effectiveness of the career development centers, State agencies, and
other contractors providing workforce training and services, to ensure that performance
is consistent with State and local goals and objectives.

For the year ended June 30, 2009, the URGWDB expended about $39.3 million in total
Federal awards and $16.6 million in DOL awards, of which $.9 million was attributable
to ARRA.




                                            13                         Quality Control Review
                                           Upper Rio Grande Workforce Development Board, Inc.
                                                            Report Number: 18-10-007-03-390
                                           U.S. Department of Labor – Office of Inspector General


ARRA was signed into law on February 17, 2009. The stated purposes of the ARRA are
to:

   •	 preserve and create jobs and promote economic recovery;
   •	 assist those most impacted by the recession;
   •	 provide investments needed to increase economic efficiency by spurring 

      technological advances in science and health; 

   •	 invest in transportation, environmental protection, and other infrastructure that
      will provide long-term economic benefits; and
   •	 stabilize state and local government budgets, in order to minimize and avoid
      reductions in essential services and counterproductive state and local tax
      increases.

ARRA requires agencies to implement an unprecedented level of transparency and
accountability to ensure the public can see where and how their tax dollars are being
spent. The Recovery Accountability and Transparency Board, was established by
ARRA, Congress, and the Office of Management and Budget to oversee and monitor
implementation of ARRA through periodic reporting on the use and expenditure of
funds. We are required by ARRA, Title XV Accountability and Transparency, Subtitle A
– Transparency and Oversight Requirements, Section 1514 Inspector General Reviews,
to post this report on our website www.oig.dol.gov and link to the Recovery
Accountability and Transparency Board’s website www.recovery.gov.




                                            14                         Quality Control Review
                                           Upper Rio Grande Workforce Development Board, Inc.
                                                            Report Number: 18-10-007-03-390
                                          U.S. Department of Labor – Office of Inspector General



                                                                                 Appendix B
Objectives, Scope, Methodology, and Criteria

Objectives

Our objectives were to determine whether:

   1. The audit was conducted in accordance with applicable standards and met the
      single audit requirements;

   2. any follow-up work is needed; and

   3. there are any issues that may require management’s attention.

Scope

We performed a QCR of the Firm’s single audit of the URGWDB, Financial Statements,
SEFA, Reports Required by GAS and A-133 for Year Ended June 30, 2009. We
performed our work at the offices of the Firm at 416 North Stanton, Suite 600, El Paso,
Texas.

Our review included the following DOL major programs:

DOL Major Programs Reviewed
                                                             CFDA        DOL Funds
Major Program                                              Number         Expended
ES                                                          17.207          $133,654
ARRA – ES                                                   17.207              $670
TAA                                                         17.245        $2,656,456
                                                            17.258
WIA Cluster                                                 17.259
                                                            17.260       $12,894,132
                                                            17.258
ARRA – WIA Cluster                                          17.259
                                                            17.260          $931,849
Total DOL Funds Expended                                                 $16,616,761

Methodology

Using the President’s Council on Integrity and Efficiency Uniform QCR Guide for A-133
Audits, we reviewed audit documentation and held discussions with the Firm’s partners
and auditors to accomplish the required steps. The Guide was developed to test for
compliance with GAS general and fieldwork standards and A-133 requirements.



                                             15                         Quality Control Review
                                            Upper Rio Grande Workforce Development Board, Inc.
                                                             Report Number: 18-10-007-03-390
                                           U.S. Department of Labor – Office of Inspector General


Specifically, we reviewed:

   •    Competence
   •    Independence
   •    Professional Judgment
   •    Quality Control
   •    Planning and Supervision
   •    Management Representations
   •    Litigation, Claims and Assessments
   •    Possible Fraud or Illegal Acts
   •    Determination of Major Programs
   •    Schedule of Expenditures of Federal Awards
   •    Audit Follow up
   •    Reporting
   •    Internal Control Over Major Programs
   •    Data-Collection Form

We also reviewed the Firm’s peer review applicable to the period of the audit.

Criteria

A-133

American Recovery and Reinvestment Act

AICPA Audit Guide, Government Auditing Standards and Circular A-133 Audits

AICPA Codification of Auditing Standards

Code of Federal Regulations

Government Auditing Standards

Guidance on Generally Accepted Government Auditing Standards Requirements for
Continuing Professional Education

Single Audit Act of 1984

Single Audit Act Amendments of 1996




                                            16                         Quality Control Review
                                           Upper Rio Grande Workforce Development Board, Inc.
                                                            Report Number: 18-10-007-03-390
                                      U.S. Department of Labor – Office of Inspector General



                                                                             Appendix C
Acronyms and Abbreviations

  A-133         Office of Management and Budget Circular A-133

  AICPA         American Institute of Certified Public Accountants

  Area          Counties of Brewster, Culberson, El Paso, Hudspeth, Jeff Davis,
                and Presidio, Texas

  ARRA          American Recovery and Reinvestment Act

  Audit Guide   American Institute of Certified Public Accountants Audit Guide,
                GAS, and A-133 Audits

  CFDA          Catalog of Federal Domestic Assistance

  DOL           Department of Labor

  ES            Employment Service

  Firm          White + Samaniego + Campbell, L.L.P.

  GAS           Government Auditing Standards

  OIG           Office of Inspector General

  OMB           Office of Management and Budget

  QCR           Quality Control Review

  SEFA          Schedule of Expenditures of Federal Awards

  TAA           Trade Adjustment Assistance

  URGWDB        Upper Rio Grande Workforce Development Board, Inc.

  WIA           Workforce Investment Act




                                       17                         Quality Control Review
                                      Upper Rio Grande Workforce Development Board, Inc.
                                                       Report Number: 18-10-007-03-390
             U.S. Department of Labor – Office of Inspector General




PAGE INTENTIONALLY LEFT BLANK 





              18                         Quality Control Review
             Upper Rio Grande Workforce Development Board, Inc.
                              Report Number: 18-10-007-03-390
                                    U.S. Department of Labor – Office of Inspector General



                                                                           Appendix D
Independent Public Accountant Response to Draft Report




                                      19                         Quality Control Review
                                     Upper Rio Grande Workforce Development Board, Inc.
                                                      Report Number: 18-10-007-03-390
U.S. Department of Labor – Office of Inspector General




 20                         Quality Control Review
Upper Rio Grande Workforce Development Board, Inc.
                 Report Number: 18-10-007-03-390
U.S. Department of Labor – Office of Inspector General




 21                         Quality Control Review
Upper Rio Grande Workforce Development Board, Inc.
                 Report Number: 18-10-007-03-390
